CERTIFICATE OF COMPLIANCE
Plaintiff, I (Servant) hereby certify the foregoing
brief was prepared on a computer using a Word
2016Word processing system. A proportionally spaced
typeface was used as follow.
Name of typeface: Century Schoolbook
Font size: 12
Line spacing:

Double Spaces

The total number of words in the brief, inclusive of
point heading and footnotes and exclusive of pages
containing the table of contents, table of citations,
proof of service, certificate of compliance, or any
authorized addendum containing statutes, rules,
regulations, ordinance and God’s commandment etc.,
is 1334.
Dated: Queens, New York
May 10, 2021
The Church of Jesus Christ of Latter-day saints
Servant:

XiulitAMuM.-lu- siWtiM hdm
Xiu Jian Sun, the spiritual Adam
54-25 153rd St.,
Flushing, NY 11355
(646) 675-0308
Plaintiff

